                                     SOCIAL SECURITY
MEMORANDUM

Date:   August 13, 2004                                                               Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: Management Information Systems Development and
        Protection (A-15-04-14071)


        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of three of the performance indicators PwC reviewed. For each performance
        indicator included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes for the
               specific performance indicator,
           •   Assess the overall adequacy, accuracy, reasonableness, completeness, and
               consistency of the performance indicator and supporting data, and
           •   Determine if each performance indicator provides meaningful measurement of
               the program and the achievement of its stated objectives.

        This report contains the results of the audit for the following indicators:

           •   Maintain zero outside infiltrations of Social Security Administration’s
               programmatic mainframes,
           •   By 2005, substantially complete the most significant projects in the Social
               Security Unified Measurement System and Managerial Cost Accountability
               System Plan, and complete the plan by the end of 2008, and
           •   Milestones in developing new performance management systems.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.



                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     Performance Indicator Audit:
    Management Information Systems
      Development and Protection


    August 2004      A-15-04-14071




AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM

Date:     July 27, 2004

To:       Acting Inspector General

From:     PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Management Information Systems Development
          and Protection (A-15-04-14071)


The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

OBJECTIVE

For each performance indicator included in this audit, our objectives were to:

          1. Test critical controls over the data generation and calculation processes for
             the specific performance indicator.

          2. Assess the overall adequacy, accuracy, reasonableness, completeness, and
             consistency of the performance indicator and supporting data.

          3. Determine if each performance indicator provides meaningful measurement
             of the program and the achievement of its stated objectives.




1
    Public Law No. 103-62, 107 Stat. 285.
2
    31 United States Code (U.S.C.) 1115(a)(4).
3
    31 U.S.C. 1115(a)(6).



Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   1
We audited the following performance indicators as stated in SSA’s Fiscal Year
(FY) 2003 Performance and Accountability Report (PAR):

    Performance Indicator                  FY 2003 Goal                  FY 2003 Reported
                                                                                Results
    Maintain zero outside           Zero Infiltrations                 Zero Infiltrations
    infiltrations of SSA’s
    programmatic
    mainframes.
    By 2005, substantially          Refer to page 5 for FY             SSA substantially
    complete the most               2003 goal.                         completed the most
    significant projects in the                                        significant projects in
    Social Security Unified                                            SUMS and MCAS.
    Measurement System
    (SUMS) and Managerial
    Cost Accountability
    System (MCAS) Plan,
    and complete the plan
    by the end of 2008.
    Milestones in Developing        Implement new Senior               Implemented a new SES
    New Performance                 Executive Service (SES)            system.
    Management Systems.             system.

BACKGROUND

SSA Information Systems

SSA has a complex computing environment that includes mainframe systems and
UNIX, AS/400 and Windows servers. SSA also maintains over 60 firewalls and over
50,000 workstations. SSA uses these systems, including distributed systems that
support the Agency’s vast field office structure, to pay over $500 billion annually in
benefits to approximately 51 million beneficiaries across the country. SSA maintains
5 mainframes logically partitioned into 21 system images with approximately 9 terabytes
of data to process over 21 million transactions daily. The Agency operates the z/OS
mainframe operating system, and uses Top Secret as their security software.

SUMS/MCAS Project

SSA’s systems allow routine assessment of performance and financial information that
managers can use to make day-to-day decisions. SSA will continue to enhance these
systems over the next few years with the SUMS and MCAS initiatives.4




4
    Social Security Administration Performance and Accountability Report Fiscal Year 2003, page 25.


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   2
Performance Management System

In FY 2003, SSA introduced a new performance management system for employees as
part of an overall strategy to distinguish between levels of performance. This system
was developed in October 2002 and is being implemented beginning with SES
employees.

RESULTS OF REVIEW

Maintain zero outside infiltrations of SSA’s programmatic mainframes

          FY 2003 Goal: Zero infiltrations.
          Actual FY 2003 Performance: Zero infiltrations.
          SSA met its goal.5

Indicator Background
A Plan
SSA maintains an Intrusion Protection Team (IPT) that was specifically designed to
prevent external infiltrations of systems. The IPT uses numerous software tools to
immediately detect attempts to infiltrate SSA’s network and underlying systems.
Additionally, software controls at all levels of SSA systems are used to prevent
unauthorized access to SSA systems.

SSA created this performance indicator to document the Agency’s success in protecting
the mainframe computers, on which SSA’s sensitive programmatic data resides.
According to SSA security management, the indicator is intended to measure
infiltrations from outside of SSA, and not infiltrations from authorized internal users who
manage to elevate their privileges and perform unauthorized actions. Additionally, the
indicator is intended to only measure infiltrations of the mainframe computers.
Infiltrations that are related to non-mainframe systems, including SSA’s Intranet,
network, and distributed systems are excluded for reporting purposes within this
indicator.

Findings

The intent of the indicator is to provide a picture of SSA’s success in preventing
mainframe infiltrations. We believe this is an important goal and its success is very
relevant to the Agency. It is not possible to state that undetected infiltrations did not
occur. Therefore the Agency cannot completely measure or fully assert that an outside
infiltration has not occurred. We believe that the indicator “Actual FY 2003
Performance” results should be enhanced as follows:

          Zero outside infiltrations of SSA’s programmatic mainframes were detected.

5
    Ibid, page 86.


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   3
We noted a number of inconsistencies in the descriptions of the indicator. Based on the
title of the indicator, internal infiltrations would not be included in the calculation of this
indicator; however, the definition, as described in the FY 2003 PAR, is unclear with
regard to inclusion of internal infiltrations:

          “The goal is to prevent any unauthorized access and/or alteration of critical data
          that would result in improper disclosure, incorrect information or lack of data
          availability. An infiltration is an unauthorized access that requires a cleanup or
          restoration of back-up files to a state prior to the infiltration. This would include
          an authorized user who obtains elevated privileges and performs unauthorized
          actions resulting in infiltration.”6 (emphasis added)

SSA management should reconsider the data definition that unauthorized access to
SSA’s mainframes is not considered an infiltration unless the unauthorized action
results in the need for SSA systems personnel to perform clean-up or restoration
activities. We believe that the definition too narrowly defines a mainframe infiltration
and could omit important events such as unauthorized access which results in
disclosure of sensitive SSA information or misuse of copied data that occurs but does
not require cleanup or restoration activities. Additionally, the indicator excludes
infiltrations of SSA’s Intranet, network and distributed systems which maintain important
Agency information.

SSA management should provide a clear statement of how preventing outside
infiltrations of the mainframe relates to the Agency goal of “To ensure superior
Stewardship of Social Security programs and resources,”7 or the Agency objective of
“Efficiently manage Agency finances and assets, and effectively link resources to
performance outcomes.”8 Although, as previously stated, the prevention of outside
infiltrations is an important goal and clearly valuable to SSA, SSA should provide a clear
link between this indicator and the overall strategic goal and objective to which it is
aligned in the FY 2003 PAR.

We also noted the need for SSA to formally document policies and procedures for
reporting mainframe infiltrations by all systems departments to the Office of Strategic
Management.

Finally, we noted that the FY 2003 PAR makes reference to red teams as part of the
Agency’s overall strategy for protecting the mainframe from infiltrations; however, during
interviews with senior SSA security management, we were informed that the red teams
were never implemented by the Agency.


6
    Ibid, page 87.
7
    Ibid, page 78.
8
    Ibid, page 84.



Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   4
Substantially Complete the Most Significant Projects in the SUMS and MCAS Plan

          FY 2003 Goal:

          SUMS
          1. Use of the SUMS Title XVI Post-eligibility Operational Data Store (PEODS)
             and SUMS Work Measurement Data Warehouse (WMDW) as the sole source
             of Agency information for managing the redeterminations and limited issue
             workloads. Complete corrections to the cases in the data warehouse.
          2. Complete the first stage of the national rollout of the Customer Service
             Record (CSR) through the Visitor Intake Process (VIP) system in SSA field
             offices. The Customer Service Query (CSQ) will contain an extract of data
             from eight databases and will be displayed in VIP.
          3. Data contained in the Title II Integrated Workload Management System
             (IWMS) will be moved to the Title II Operational Data Store (ODS) and will be
             the basis for the new processing time reports and SUMS counts.
          4. Data on Title XVI Initial Claims processing time from the SSI Claims Report
             (SSICR) will be moved to the WMW and accessed from the Common Front
             End to provide web-based processing time reports.

          MCAS
          5. Cost Analysis System (CAS) Renovation – Office of Hearings and Appeals
             (OHA) Work Counts: Release 7 of the CAS Renovation project under the
             umbrella MCAS project will substantially automate the manual processes
             currently used to compute basic workload count and work time by workload
             information for the OHA and to enter that data to SSA’s CAS. This project will
             reduce the time and effort required to produce these data and will enhance
             the accuracy and integrity of SSA’s managerial cost accounting processes.
          6. Complete Vision and Scope Document for Time Allocation. This document
             will complete the user planning and analysis phase of the Time Allocation
             project and will provide the basis for development of detailed requirements
             and project plans for time allocation.

          Actual FY 2003 Performance: SSA substantially completed the most significant
          projects in SUMS and MCAS.

          SSA met its goal.9

Indicator Background

The SUMS/MCAS performance indicator is comprised of six subprojects, which are
intended to report the Agency's progress against predefined milestones related to the
SUMS and MCAS enhancements. The SUMS and MCAS subprojects are related to
automating the process of reporting the Agency’s workloads to provide more efficient,


9
    Ibid, page 87.


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   5
timely and accurate cost data for the Agency. These improvements should enable SSA
to more effectively link their resources to costs and performance.

Findings

We believe that the indicator is generally adequate and provides valuable information
relative to achieving enhancements in future reporting of workloads and time allocation;
however, SSA could enhance the disclosures in the PAR. SSA management should
provide a clear statement of how completion of the plan directly relates to the
achievement of the Agency’s strategic objective “Efficiently manage Agency finances
and assets, and effectively link resources to performance outcomes”10 and the strategic
goal “To ensure superior Stewardship of Social Security programs and resources.”11
Although implementation of the systems enhances the Agency’s workload, cost and
time allocation data, SSA should provide a clear statement of how the data from the
new systems will be used to achieve the overall strategic goal and objective to which it
is aligned in the FY 2003 PAR.

SSA should also clearly state how the completion of the subprojects will enable the
Agency to complete the most significant projects in the SUMS and MCAS plan by 2005,
or complete the entire plan by 2008. The indicator does not identify the previously
completed projects or the projects that remain outstanding. Additionally, the indicator
provides no context for why these six projects were identified as milestones for FY 2003
or why they were deemed the most significant projects in the SUMS and MCAS Plan.

Milestones in Developing New Performance Management Systems

           FY 2003 Goal: Implement new Senior Executive Service system.
           Actual FY 2003 Performance: Implemented a new SES system.
           SSA met its goal. The five-tier Senior Executive Service (SES) performance
           management system was implemented on October 1, 2002.12

Indicator Background

The FY 2003 evaluation cycle required all SES employees to complete appraisals
following the new performance management process. The five rating levels as
documented in the performance management system are:

           •   Outstanding: Consistently superior; significantly exceeds expectations of
               the Fully Successful performance standard.


10
     Ibid, page 84.
11
     Ibid, page 78.
12
     Ibid, page 90.


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   6
           •   Excellent: Consistently exceeds expectations of the Fully Successful
               performance standard.
           •   Fully Successful: Consistently meets performance expectations.
           •   Minimally Satisfactory: Marginally acceptable, needs improvement,
               occasionally less than Fully Successful performance.
           •   Unsatisfactory: Undeniably unacceptable; generally less than Fully
               Successful performance.

This indicator is linked to the strategic objective of “Recruit, develop and retain a high-
performing workforce.”13 Implementation of a new performance management system is
considered a critical part of SSA’s Future Workforce Transition Plan (FWTP) to better
manage and align SSA human capital in support of SSA’s mission.

The implementation of a new performance management system for the SES employees
has received significant support from the Commissioner, Deputy Commissioners,
Performance Review Board and Executive Resources Board. Employees received
guidance on developing and processing performance plans in areas such as conducting
progress reviews, rating executives, procedures for non-standard situations, and using
the performance management system as a decision making tool.

Findings

We believe that this indicator is generally adequate; however, some improvements
could be made. This indicator captures the Agency's progress against predefined
milestones for implementing the performance management system. However, the
indicator does not measure the effectiveness of the new system in differentiating the
performance of the workforce. The FY 2003 PAR fails to clearly explain how
implementing a new performance management system for SES employees relates to
the Agency goal “To strategically manage and align staff to support SSA’s mission,”14 or
the Agency objective to “Recruit, develop and retain a high-performing workforce.”15




13
     Ibid, page 89.
14
     Ibid, page 89.
15
     Ibid, page 89.



Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   7
RECOMMENDATIONS
We recommend SSA:

    1. Articulate and disclose the linkage of the performance indicators to the Agency’s
       strategic goals and objectives.
    2. Maintain documentation that describes why the performance indicator goals were
       established.
    3. Document the policies and procedures used to prepare and disclose the results
       of the performance indicators.

Specific to the performance indicator, “Maintain Zero Outside Infiltrations of SSA’s
Programmatic Mainframes,” we recommend SSA:

    4. Revise the performance indicator results to clarify that it measures only detected
       infiltrations.
    5. Ensure that the performance indicator definitions are meaningful, complete, and
       consistent with the title.

AGENCY COMMENTS
SSA generally agreed with the recommendations in this report. Specific to
Recommendation 4, SSA will change the data definition for the performance indicator
“Maintain Zero Outside Infiltrations of SSA’s Programmatic Mainframes” to clarify the
potential sources of infiltrations. However, SSA stated that the title of this performance
indicator will remain the same. The full text of SSA’s comments can be found in
Appendix D.

PwC RESPONSE
We believe SSA’s proposed actions will strengthen the performance indicator reporting
process. As such we encourage the Agency to move forward with its corrective actions.




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   8
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)
                                                                                          Appendix A

Acronyms
 CAS                   Cost Analysis System
 CSO                   Chief Security Officer
 CSQ                   Customer Service Query
 CSR                   Customer Service Record
 DIODS                 Disability ODS
 EMODS                 Earnings ODS
 FedCIRC               Federal Computer Incident Response Center
 FWTP                  Future Workforce Transition Plan
 FY                    Fiscal Year
 GPRA                  Government Performance and Results Act
 IBM                   International Business Machines
 IPT                   Intrusion Protection Team
 IWMS                  Integrated Workload Management System
 MCAS                  Managerial Cost Accountability System
 ODS                   Operational Data Store
 OHA                   Office of Hearings and Appeals
 OHR                   Office of Human Resources
 OPM                   Office of Personnel Management
 OSM                   Office of Strategic Management
 PAR                   Performance and Accountability Report
 PEODS                 Post-eligibility Operational Data Store
 SES                   Senior Executive Service
 SSA                   Social Security Administration
 SSASRT                SSA Security Response Team
 SSICR                 Supplemental Security Income Claims Report
 SUMS                  Social Security Unified Measurement System
 U.S.C.                United States Code
 VIP                   Visitor Intake Process
 VPN                   Virtual Private Network
 WMDW                  Work Measurement Data Warehouse



Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)
                                                                                          Appendix B

Scope and Methodology
We first updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing including testing of source
documentation, we performed the following as applicable:

      •   Reviewed prior SSA, Government Accountability Office,1 and other reports
          related to SSA GPRA performance and related information systems.
      •   Met with the appropriate SSA personnel to confirm our understanding of each
          individual performance indicator.
      •   Flowcharted the processes (see Appendix C).
      •   Where applicable, we tested key controls related to manual or basic
          computerized processes (e.g., spreadsheets, databases, etc.).
      •   Conducted and evaluated tests of the automated and manual controls within and
          surrounding each of the critical applications to determine whether the tested
          controls were adequate to provide and maintain reliable data to be used when
          measuring the specific indicator.
      •   Identified and extracted data elements from relevant systems and obtained
          source documents for detailed testing selections and analysis.
      •   Identified attributes, rules, and assumptions for each defined data element or
          source document.
      •   Tested the adequacy, accuracy, reasonableness, consistency, and completeness
          of the selection.
      •   Recalculated the metric or algorithm of key performance indicators to ensure
          mathematical accuracy.
      •   For those indicators with results that SSA determined using computerized data,
          we assessed the completeness and accuracy of that data to determine the data's
          reliability.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate
1
    Formerly called the General Accounting Office.


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   B-1
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards.

In addition to the steps above, we specifically performed the following to test the
indicators included in this report:

MAINTAIN ZERO OUTSIDE INFILTRATIONS OF SSA’S
PROGRAMMATIC MAINFRAMES
    •   Assessed the reliability of the data by inquiring of appropriate personnel as to the
        sources of the data included on, and the process for reviewing, the Federal
        Computer Incident Response Center (FedCIRC) reports.
    •   Reviewed the monthly FedCIRC reports for Fiscal Year (FY) 2003.
    •   Interviewed various SSA personnel (including the Intrusion Protection Team
        (IPT), SSA Security Response Team (SSASRT), Chief Security Officer (CSO),
        Virtual Private Network (VPN) & Modems Administration and Support teams, Top
        Secret Administrators and Security Officer) responsible for protecting the
        mainframe to gain an understanding of the tools and processes implemented to
        protect, monitor and report on SSA’s systems security.
    •   Performed (on SSA’s FY 2003 Financial Statement Audit) penetration testing,
        firewall assessments, mainframe operating system and Top Secret configuration
        reviews.

SUBSTANTIALLY COMPLETE THE MOST SIGNIFICANT
PROJECTS IN THE SUMS AND MCAS PLAN
    •   Reviewed documentation related to project development, implementation and
        management activities.
    •   Reviewed the projects and found that they were developed in accordance with
        Agency documentation policies regarding application software development.
    •   Reviewed each of the projects and found they were released into production
        during the timeframe reported in the FY 2003 PAR by obtaining their software
        release documentation.
    •   Reviewed each of the sub-projects and found that they were being used upon
        implementation by interviewing a selection of end users.

MILESTONES IN DEVELOPING NEW PERFORMANCE
MANAGEMENT SYSTEMS
    •   Reviewed the five-level performance management system and found that it was
        implemented for Senior Executive Service (SES) personnel in FY 2003 by
        reviewing the SES Performance Plan/Rating (Form SSA-330 EF-WP).
    •   Reviewed President’s Management Agenda requirements.



Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   B-2
      •   Reviewed United States Code (U.S.C.) Title 5 criteria regarding SES employee
          performance appraisal systems and applied such criteria to the performance
          indicator. 2
      •   Assessed the reliability of the data by inquiring of appropriate personnel
          regarding the implementation of the performance management system.
      •   Reviewed the FY 2003 performance appraisals for a selection of SES personnel.
      •   Assessed the adequacy of the performance management system and assessed
          how successfully the indicator supports the Agency’s goals and objectives.




2
    5 U.S.C. 4311 et. seq.


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   B-3
                                                                                                   Appendix C

Flowchart of Maintain Zero Outside Infiltrations of
SSA’s Programmatic Mainframes
                                                                                                     No
                                                                          Is Activity Unusual or
     Activity Surrounding SSA Systems       Monitoring Activities
                                                                              Suspicious?




                                                                             Yes



                                                                                  Alert
                                                                               Forwarded
                                                                                 to IPT

                                                                                                             Processed
                                                                                                           Normally by SSA
                                                                                                             Computing
                                                                                                            Environment


                                                                            IPT Investigates
                                                                                 Activity




              Infiltration
                                                                    Yes                               No
             Included on                                                    IPT Determines
                                        Response Activities
              FedCIRC                                                         Response
                Report




 Management Coordination & Executive
   Contact Teams Meet Regularly &
   Discuss Security of SSA Systems




       CSO Reports Activity to
              OSM
         on Monthly Basis




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)                  C-1
Maintain zero outside infiltrations of SSA’s programmatic mainframes

    •   Activity Surrounding SSA Systems (Including the Firewalls, Internet, Intranet,
        Network and E-mail).
    •   SSA & International Business Machines (IBM) Sensors Monitor Activity.
    •   Is Activity Unusual or Suspicious?
             o Yes - Alert Forwarded to IPT
             o No - Processed Normally by SSA Computing Environment
    •   IPT Investigates Activity.
    •   IPT Determines if Mainframe Infiltration Occurred.
             o Yes - Incident Response Team Alerted & Containment Procedures
                 Activated
             o No - Processed Normally by SSA Computing Environment
    •   Infiltration Included on FedCIRC Report.
    •   Management Coordination & Executive Contact Teams Meet Regularly &
        Discuss Security of SSA Systems (Including VPN & Modem Access, Top Secret,
        FedCIRC Report).
    •   CSO Reports Infiltrations to OSM on Monthly Basis.




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   C-2
Flowchart of Substantially Complete the Most
Significant Projects in the SUMS and MCAS Plan
                                                                         SUMS / MCAS Business Plan
                                                                           (Developed in 10/2002)




                                                                                  SUMS / MCAS
                                                                                   Project Plan
                                                                                  (Dated 10/4/02)




             Milestones Accomplished Prior to FY2003
                                                                                                                Milestones Accomplished Prior to FY2003
       y     SUMS Documentation Website
       y     Title XVI Post-Eligibility (PE) ODS                                                            y   Earnings ODS (EMODS)
       y     Work Measurement Data Warehouse (WMDW)                                                         y   Title XVI ODS
       y     Title II Initial Claims Operational Data Store (ODS)                                           y   Disability ODS (DIODS)
                                                                                                            y   Fraud ODS



                                                                       Milestones Completed in FY 2003




       SUMS                         SUMS                                                                    SUMS
                                                                SUMS                                                                MCAS
 Move Title XVI Initial      Moved Data in Title II                                                  Title XVI PEODS &                                         MCAS
                                                        Completed 1st Stage                                                    CAS Renovation
  Claims Processing          IWMS to Title II ODS                                                   WMDW for Managing                                     Completed Vision
                                                        of National Rollout for                                               Project - Release 7
from SSICR to WMW               for New Time                                                        Redeterminations &                                  and Scope Document
                                                         CSR Through VIP in                                                    Automated OHA
   & Accessed from             Reports & SUMS                                                            Limited Issue                                   for Time Allocation
                                                              SSA FO’s                                                           Work Counts
 Common Front End                   Counts                                                                Workloads




                                     SUMS
                  According to the Project Plan, the following                                                                         MCAS
                  milestones will be achieved in FY2004-2005.                                                       According to the Project Plan, the following
                                                                             Milestones Scheduled
                                                                                                                    milestones will be achieved in FY2004-2005.
              y      SUMS Counts Rqmts                                        in FY 2004 - FY 2005
              y      T2 Initial Claims Phases 2-3                                                               y      Time Allocation Base System
              y      T16 Initial Claims Phases 2-3                                                              y      Managerial Accounting:
              y      CDR Phases 1-2-3                                                                                       - CAS Renovation: Release 7, 8, 9
              y      Redets/LI,                                                                                             - MCAS Reports
              y      Benefits Recomp Phases 1-2                                                                             - Work Measurement Trans.
              y      Appeals Phases 1-2                                                                                     - MCAS Rel. 1 - CAS Replacement
              y      CSR Releases 1-2-3-4                                                                                   - MCAS Rel. 2 - Dist/Allo
              y      Debt Management Phase 1
              y      Inquiries Phase 1




                                     SUMS
                  According to the Project Plan, the following
                  milestones will be achieved in FY2005-2008.                                                                          MCAS
                                                                             Milestones Scheduled                   According to the Project Plan, the following
             y       Debt Management Phase 2                                  in FY 2004 - FY 2005                  milestones will be achieved in FY2005-2008.
             y       Inquiries Phases 2-3
             y       Enumeration Phases 1-2                                                                     y      Time Allocation Additional Workloads
             y       Earnings Phases 1-2                                                                        y      Managerial Accounting
             y       Rep. Payee Phases 1-2                                                                                  - Strat. & Perf. Plans
             y       Fraud Phases 1-2                                                                                       - SSA Program Data
             y       Indirect Work Phases 1-2-3                                                                             - Quality & Accuracy
             y       Medicare Phases 1-2-3                                                                                  - Budget Form. & Exec. Sys.
             y       Public Information Phases 1-2-3
             y       Reimb Wrklds Phases 1-2-3




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)                                                                  C-3
Substantially Complete the Most Significant Projects in the SUMS and MCAS
Plan

•   SUMS / MCAS Business Plan (Developed in 10/2002).
•   SUMS / MCAS Project Plan (Dated 10/4/02).
•   Milestones Accomplished Prior to Fiscal Year (FY) 2003.
       o SUMS Documentation Website
       o Title XVI Post-Eligibility (PE) ODS
       o Work Measurement Data Warehouse (WMDW)
       o Title II Initial Claims Operational Data Store (ODS)
       o Title XVI ODS
       o Disability ODS (DIODS)
       o Fraud ODS
       o Earnings ODS (EMODS)
•   Milestones Completed in FY 2003.
       o SUMS
               Move Title XVI Initial Claims Processing from SSICR to WMW &
                  Accessed from Common Front End
               Moved Data in Title II IWMS to Title II ODS for New Time Reports &
                  SUMS Counts (See Note)
               Title XVI PEODS & WMDW for Managing Redeterminations & Limited
                  Issue Workloads
               Completed 1st Stage of National Rollout for CSR Through VIP in SSA
                  Field Offices
       o MCAS
               CAS Renovation Project - Release 7 Automated OHA Work Counts
               Completed Vision and Scope Document for Time Allocation
•   Milestones Scheduled in FY 2004 – FY 2005.
       o SUMS - According to the Project Plan, the following milestones will be
           achieved in FY 2004 – FY 2005.
               SUMS Counts Rqmts
               T2 Initial Claims Phases
               T16 Initial Claims Phases
               CDR Phases
               Redeterminations/Limited Issue Workloads,
               Benefits Recomputation Phases
               Appeals Phases
               CSR Releases
               Debt Management Phases
               Inquiries Phases
       o MCAS - According to the Project Plan, the following milestones will be
           achieved in FY 2004 – FY 2005.
               Time Allocation Base System
               Managerial Accounting:
                       • CAS Renovation: Release 7, 8, 9


Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   C-4
                     • MCAS Reports
                     • Work Measurement Trans.
                     • MCAS Rel. 1 - CAS Replacement
                     • MCAS Rel. 2 - Dist/Allo
•   Milestones Scheduled in FY2005-FY2008.
       o SUMS - According to the Project Plan, the following milestones will be
           achieved in FY 2005 – FY 2008.
               Debt Management Phase
               Inquiries Phases
               Enumeration Phase
               Earnings Phases
               Representative Payee Phases
               Fraud Phases
               Indirect Work Phases
               Medicare Phases
               Public Information Phases
               Reimbursable Workload Phases
       o MCAS - According to the Project Plan, the following milestones will be
           achieved in FY2005-2008.
               Time Allocation Additional Workloads
               Managerial Accounting
                     • Strat. & Perf. Plans
                     • SSA Program Data
                     • Quality & Accuracy
                     • Budget Formulation & Execution System
•   Note: This milestone was completed on 10/24/03 (after closure of FY 2003).




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   C-5
Flowchart of Milestones in Developing New
Performance Management Systems
                                       Title 5 US Code / President’s
                                            Management Agenda
                                               Requirements 1




                                         OHR Restructures SES
                                        Performance Management
                                        System to Include 5 Levels

                                                                       No



                                          Commissioner / OPM
                                              Approval



                                                        Yes

                                            Restructured SES
                                        Performance Management
                                        System rolled out 10/1/02




                                        Employee/Supervisor Set
                                          Annual Performance
                                              Objectives




                                           Mid-Cycle Review /
                                          Ongoing Discussions




                                          Employee/Supervisor
                                           Complete Appraisal




                                           Performance Review
                                             Board Reviews /
                                           Recommends Final
                                           Appraisal Summary
                                                  Rating




                                         Commissioner Assigns
                                        Final Appraisal Summary
                                                 Rating




                                               Appraisal is
                                                finalized




1
    5 U.S.C. Section 4311.




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   C-6
    Milestones in Developing New Performance Management Systems

    •   Title 5 United States Code / President’s Management Agenda Requirements.
    •   Office of Human Resources (OHR) Restructures SES Performance Management
        System to Include 5 Levels.
    •   Commissioner / Office of Personnel Management (OPM) Approval.
            o Yes - Restructured SES Performance Management System rolled out
                10/1/02
            o No - OHR Restructures SES Performance Management System to Include
                5 Levels
    •   Employee/Supervisor Set Annual Performance Objectives.
    •   Mid-Cycle Review / On-going Discussions.
    •   Employee/Supervisor Complete Appraisal.
    •   Performance Review Board Reviews /Recommends Final Appraisal Summary
        Rating.
    •   Commissioner Assigns Final Appraisal Summary Rating.
    •   Appraisal is finalized.




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   C-7
                                                                                          Appendix D
Agency Comments




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)
                                               SOCIAL SECURITY

MEMORANDUM                                                                                     33296-24-1159

Date:      July 14, 2004                                                                      Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General
From:      Larry W. Dye         /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Indicator Audit:
           Management Information Systems Development and Protection” (A-15-04-14071)—
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           If you have any questions, you may contact Candace Skurnik, Director of the Audit Management
           and Liaison Staff, at extension 54636.

           Attachment




           Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“PERFORMANCE INDICATOR AUDIT: MANAGEMENT INFORMATION SYSTEMS
DEVELOPMENT AND PROTECTION (A-15-04-14071)

Thank you for the opportunity to review and provide comments on this OIG draft report. We find
the report useful in our ongoing efforts to improve strategic and performance management at the
Social Security Administration (SSA).

Recommendation 1

Articulate and disclose the linkage of the performance indicators to the Agency's strategic goals and
objectives.

Comment

We concur. The SSA Office of the Chief Strategic Officer (OCSO) is currently developing the
fiscal year (FY) 2005/2006 Agency Performance Plan (APP) and will ask every sponsoring SSA
component to improve the documentation linking performance indicators to Agency strategic
goals and objectives. Our future performance plans will include a narrative explanation of the
linkage between performance measures, targets and the Agency's strategic goals and objectives.

Recommendation 2

Maintain documentation that describes why the performance indicator goals were established.

Comment

We concur with this recommendation. Maintaining documentation of this nature has always
been part of our standard operating procedure. OCSO has asked the Agency's planning
representatives and data sources to enhance maintenance of documentation relating to
performance indicator goals. We will modify SSA's Performance and Accountability Report
(PAR) to include this information for the key performance measures.

Recommendation 3

Document the policies and procedures used to prepare and disclose the results of the performance
indicators.


Comment

We agree. In conjunction with development of the FY 2005/2006 APP, OCSO will issue a
reminder to SSA sponsoring components concerning the requirement to document policies and
procedures used to prepare and disclose the results of performance indicators.




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   D-2
Recommendations specific to performance indicator, “Maintain Zero Outside Infiltrations of SSA's
Programmatic Mainframes”:

Recommendation 4

Revise the performance indicator results to clarify that it measures only detected infiltrations.

Comment

Since all the measures included in the PAR are based upon the information available to the
Agency, we believe it is implicit that this particular performance indicator relates to detected
infiltrations only. We have changed the data definition for this performance indicator effective
with the FY 2005/2006 APP to clarify the potential sources of infiltrations. The title of the
performance indicator (“Maintain Zero Outside Infiltrations of SSA’s Programmatic
Mainframes”) will remain the same.

Recommendation 5

Ensure that the performance indicator definitions are meaningful, complete, and consistent with the
title.

Comment

We agree, and will review performance indicator data definitions in a manner consistent with this
recommendation as we develop the FY 2005/2006 APP. We have changed the data definition for
the "Maintain Zero Outside Infiltrations of SSA's Programmatic Mainframes" effective with the FY
2005/2006 APP.




Performance Indicator Audit: Management Information Systems Development and Protection (A-15-04-14071)   D-3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
